      -
      0IG-90-3118
      Close Out
      Diary Note
                    (M~o-16)




                                              -
                 initial correspondence of 2/17/90 requested, without a
      stated basis, that the National Science Foundation withdraw all
      funding to the '                     @

      In response to our request of 4/17/90 for the basis of such a
      withdrawal, we received             letter dated 4/23/90.   This
      letter complains of failu-redited          with the discovery
                                                                  - of
      a letter important to the history of the development of the
                        This letter neither claims or attempts to show
   p -                  with either a proposal to or award from the
      National Science Foundation.
     On 4/30/90, I learned that a copy of my 4/17/90 letter to I  I)
          had been sent anonymously along with certain other letters
m!!!!!     various persons to the Chair,                Department,

      Since             atters do not reach us in a proposal or award,
      I amru-              interest in this case.
        QI
        i-.'&
         ;  '6.
       .#*>" "    ,
01~-90-3!i18%
CLOSE OUT

The case was closed out because no jurisdiction    could   be
established for the National Science Foundation.
